Supreme Court, U.S.
FILED

JUN

- 8 2021

OFFICE OF THE CLERK

No. 20-1509
IN THE

6upreute Court of tije

*tate5

PAMELA M. TIMBES,
Petitioner,
v.

DEUTSCHE BANK NATIONAL TRUST COMPANY AS
INDENTURED TRUSTEE,
Respondent.
On Petition for Writ of Certiorari to the
Superior Court of Georgia,
Glynn County
MOTION TO DISMISS PURSUANT TO RULE 46
Petitioner Pamela M. Timbes hereby moves, pursuant to this Court's Rule 46, to dismiss the case. Each party has agreed to bear its own costs. Petitioner states that she
has conferred with counsel for the Respondent and Respondent does not object to this
Motion.

Dated:

51(

, 2021

Respectfully submitted,

610.14..k yam, ,..q1
,0146161"
Pamela M. Timbes
Petitioner Pro Se
304 Carnoustie
St. Simons Island, GA 31522
ptimbes@gmail.com
912-222-6773
USA.603554392. I /DST

RECEIVED
JUN 10 2021

CERTIFICATE OF SERVICE

I hereby certify that I have this day served the following parties with the foregoing MOTION TO DISMISS PURSUANT TO RULE 46:
Dallas R. Ivey
Christopher Reading
Aldridge Pite LLP
3575 Piedmont Road NE
Fifteen Piedmont Center, Suite 500
Atlanta, Georgia 30305

By USPS First Class mail with sufficient postage affixed thereon to assure delivery.
Dated:

, 2021

Respectfully submitted,

diatm.„64 k .
Pamela M. Timbes
Petitioner Pro Se
304 Carnoustie
St. Simons Island, GA 31522
ptimbes@gmail.com
912-222-6773

